ACTIONS TAKEN AND NEEDED IN IMPLEMENTING
MANDATES AND RECOMMENDATIONS REGARDING
 PIPELINE AND HAZARDOUS MATERIALS SAFETY

          Department of Transportation

          Report Number: AV-2006-003
          Date Issued: October 20, 2005
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report on Actions Taken                                          Date:    October 20, 2005
           and Needed in Implementing Mandates and
           Recommendations Regarding Pipeline and
           Hazardous Materials Safety
           Department of Transportation
           Report Number AV-2006-003

  From:                                                                               Reply to
           Kenneth M. Mead                                                            Attn. of:   J-1
           Inspector General

    To:    The Secretary
           Deputy Secretary
           Chief of Staff
           Administrator Designate, Pipeline and
            Hazardous Materials Safety Administration
           Chairman, National Transportation Safety Board

           As required by the Norman Y. Mineta Research and Special Programs
           Improvement Act, 1 the Office of Inspector General (OIG) conducted a review of
           the Department of Transportation’s (DOT) progress in implementing
           congressional mandates and other safety recommendations for improving pipeline
           and hazardous materials safety. The Act requires the Inspector General to provide
           a report to the Secretary of Transportation and the Administrator of the Pipeline
           and Hazardous Materials Safety Administration (PHMSA) containing a list of
           outstanding congressional mandates and open safety recommendations made by
           the National Transportation Safety Board (NTSB) or OIG regarding pipeline and
           hazardous materials safety.

           On February 1, 2005, we gave the Secretary a preliminary list of outstanding
           congressional mandates and open safety recommendations. This report is an
           update on the actions taken and actions needed to implement outstanding
           congressional mandates and open NTSB and OIG recommendations regarding
           pipeline and hazardous materials safety. In light of Hurricane Katrina, we were
           1
               The Act (Public Law Number 108-426) created, among other things, the Pipeline and Hazardous Materials Safety
               Administration within the Department of Transportation.
                                                                                                               2


concerned as to whether any of the outstanding mandates or recommendations we
identified in this report were relevant in preventing, preparing for, responding to,
and recovering from Katrina, and we confirmed that they were not. Our scope and
methodology are presented in Exhibit A.


RESULTS IN BRIEF
To address most congressional mandates and NTSB safety recommendations, the
Department and its Operating Administrations issue rules, complete studies, or do
both. Since 1999, the Department has made significant progress in issuing rules,
especially old rules and congressionally mandated rules with deadlines. The
Department completed 39 percent more rulemakings in 2004 than it did in 1999.
As we previously reported, 2 the principal reason for that progress has been the
priority given to rulemaking by the Secretary, Deputy Secretary, Chief of Staff,
and General Counsel. Congressional interest has also placed emphasis on
rulemaking, and several OIG audit reports have identified ways to improve the
rulemaking process, such as implementing a Department-wide rulemaking
tracking and monitoring system to identify problems occurring both
Department-wide and at the individual Operating Administrations.

Also, in our June 2004 testimony on pipeline safety before the House
Subcommittee on Highways, Transit and Pipelines, 3 we reported that the Office of
Pipeline Safety (OPS), which is part of PHMSA (formerly the Research and
Special Programs Administration), has made considerable progress in closing out
mandates from legislation enacted in 1992, 1996, and 2002 and in closing out
NTSB recommendations, some of which had been open since the early 1990s.
This progress was the direct result of a high level of management attention and
priority in the past few years to complete the mandates and recommendations. 4

Still, there remain some long-standing pipeline and hazardous materials
congressional mandates, some more than a decade old (ranging from 2.7 to
12.8 years for pipeline safety mandates and 2.5 to 14.8 years for hazardous
materials safety mandates). There also remain some long-standing NTSB pipeline
and hazardous materials safety recommendations, ranging from 0.8 to 14.8 years
for pipeline safety recommendations and 0.7 years to 16.1 years for hazardous
materials safety recommendations.


2
    OIG Report Number SC-2005-031, “Follow-up Audit of DOT’s Rulemaking Process and Tracking System,”
    December 21, 2004. OIG reports can be found on our website: www.oig.dot.gov.
3
    OIG Report Number CC-2004-061, “Actions Taken and Actions Needed To Improve Pipeline Safety,” June 16,
    2004.
4
    We are not able to quantify the progress in implementing hazardous materials mandates and NTSB recommendations
    by the other Operating Administrations because we have not conducted comprehensive audits of their hazardous
    materials programs.
                                                                                                                  3


The outstanding mandates and open recommendations encompass a wide variety
of safety issues that are important to the integrity of the pipeline system and to the
safe transportation of hazardous materials. Unlike congressional mandates where
the Department must take the necessary actions to address the mandates, a safety
recommendation is NTSB’s suggested course of action to an Operating
Administration to correct a transportation safety deficiency. The Operating
Administrations can chose to adopt a NTSB recommendation, adopt one in part, or
decline to carry one out. For the latter two choices, the Operating Administrations
must provide NTSB with a reason for adopting the recommendation in part or not
at all.

The outstanding mandates we identified include safety issues such as the need to
(1) prescribe standards for using the direct assessment method 5 to inspect
pipelines for potentially dangerous defects, such as corrosion; and (2) amend
existing regulations, as appropriate, to provide for the safe transportation by rail of
high-level radioactive waste and spent nuclear fuel as the number of shipments of
these materials increases annually.

The open NTSB recommendations we identified include safety issues such as the
need to (1) require that excess flow valves, which automatically close off and
restrict leaking gas, be installed in all new and renewed gas service lines when the
operating conditions are compatible with readily available valves to reduce the
consequences of service line ruptures; and (2) amend the training requirements for
shippers and carriers of hazardous materials by air because hazardous materials
transport and the aviation industry have changed significantly since the Federal
Aviation Administration (FAA) promulgated them more than 25 years ago.

In light of Hurricane Katrina, we wanted to establish whether any of the
outstanding mandates or safety recommendations included in our review were
relevant in preventing, preparing for, responding to, or recovering from Katrina.
We did not find any that were relevant. One open NTSB pipeline safety
recommendation addresses the need for revising the emergency response planning
requirements in the pipeline safety regulations to include coordination with
electric and other utilities that may need to respond to a pipeline emergency.

OPS has taken action on this recommendation and is awaiting closure by NTSB.
Specifically, OPS issued an advisory bulletin to alert pipeline operators of the
need to preplan for emergency response with all utility companies whose
proximity to the pipeline may affect the response. Existing regulations for both
natural gas and hazardous liquid pipelines require operators to have emergency

5
    Direct assessment is an inspection process used to assess the integrity of pipelines by a combination of indirect
    examination (above-ground inspection using instruments that measure pipeline anomalies) and direct examination
    (excavation and visual inspection for integrity threats).
                                                                                                                    4


procedures for addressing pipeline emergencies and explicitly require that
operators include procedures for planning with fire, police, and other public
officials to ensure a coordinated response. The advisory bulletin states that
pipeline operators need to coordinate emergency response planning with owners of
electric and other utilities.

In addition to the advisory bulletin, OPS also asked the National Association of
State Fire Marshals to prepare a guidance bulletin to reinforce for fire and
emergency response personnel the importance of including all utilities in the
Incident Command System and to arrange for state workshops on emergency
response. OPS is also working with the Common Ground Alliance 6 to develop a
best practice on emergency response.

The emergency response planning for Katrina’s disruptions to the Nation’s
pipeline system in the Gulf Coast region were more economic in nature rather than
safety related and involved keeping the supply of energy flowing from the Gulf
Coast region to the Southeastern and Mid-Atlantic regions of the United States.
The broader issue of emergency response planning will be the subject of various
post-Katrina inquiries.

Senior officials should continue to focus on reducing the number of outstanding
mandates and NTSB recommendations—by issuing rules, completing studies, or
both. This is important because the Senate Appropriation Committee, in its report
on DOT’s 2006 appropriations, highlights its interest in Department efforts to
reduce the backlog of delinquent reporting requirements (i.e., outstanding
congressional mandates).

Senior officials also need to focus on meeting their statutory requirements when
responding to NTSB recommendations. For example, instead of submitting
formal written responses to NTSB recommendations within 90 days of receipt, as
required by law, the Operating Administrations’ average response time is
158 days. The Department’s process for monitoring and tracking NTSB
recommendations needs to be strengthened to assure that NTSB recommendations
have been handled in a timely manner and properly addressed, including providing
milestones for completing the recommendations.




6
    The Common Ground Alliance members include all underground facilities stakeholder groups (e.g., oil, gas, electric,
    telecommunications, water, excavation, and road building) whose common purpose is to prevent damage to
    underground infrastructure.
                                                                                                                 5


Working with the pertinent Operating Administrations7 and NTSB, we have
identified and verified the following lists of outstanding safety mandates and
recommendations.

• Open OIG pipeline and hazardous materials safety recommendations
  from 2004. This list (see Exhibit B) includes actions taken and needed to
  close the five open pipeline safety recommendations regarding PHMSA’s
  Pipeline Safety Program and eight open hazardous materials safety
  recommendations regarding FAA’s Hazardous Materials Program.

      The OIG recommendations regarding pipeline and hazardous materials safety
      were in reports issued in June and November 2004, respectively. Although the
      recommendations are still open, PHMSA and FAA have made progress on
      them. For example, PHMSA has closed two recommendations and is expected
      to complete additional actions on the remaining five by the end of 2005. For
      actions requiring rulemaking, PHMSA expects to issue final rules by the end of
      2006. FAA has taken actions on all eight recommendations, with more than
      half of the recommendations expected to be completed by the end of 2005.

• Outstanding pipeline and hazardous materials safety mandates from
  legislation enacted from 1990 through 2004. This list (see Exhibit C)
  includes actions taken and needed to close the 10 outstanding pipeline safety
  mandates and 6 outstanding hazardous materials mandates. Five of the
  10 outstanding pipeline safety mandates have not been completed because
  4 have congressional deadlines that have not come due and 1 lacks
  appropriated funds for implementation. The average elapsed time of the
  outstanding pipeline and hazardous materials mandates is 8.8 years and
  9.0 years, respectively, with a range of 2.7 to 12.8 years for pipeline safety
  mandates and 2.5 to 14.8 years for hazardous materials safety mandates.

      Three of the six hazardous materials mandates have been outstanding for more
      than a decade. The Federal Railroad Administration (FRA) has taken the
      longest to address outstanding hazardous materials safety mandates, with an
      average elapsed time of almost 15 years. According to FRA, it has been faced
      with technological delays for the two outstanding mandates, with one mandate
      just completed on September 22, 2005.

• Open NTSB pipeline and hazardous materials safety recommendations
  from 1989 through 2004. This list (see Exhibit D) includes actions taken and
  needed to close the 13 open pipeline safety recommendations and 26 open
  hazardous materials recommendations.

7
    FAA, the Federal Motor Carrier Safety Administration, the Federal Railroad Administration, and PHMSA (its Office
    of Pipeline Safety and Office of Hazardous Materials Safety).
                                                                                                                   6


      There are five classifications for “open” NTSB recommendations, which
      describe the quality of the Department’s or its Operating Administrations’
      response and the actions taken to adopt or implement the recommendation:
      open-await response, open-response received, open-acceptable response,
      open-acceptable alternate response, and open-unacceptable response.

      All 13 pipeline safety recommendations are currently classified as
      open-acceptable response, but the agreed-upon actions have either not been
      completed or actions taken are considered by OPS as being in the close-out
      phase (i.e., acceptable action taken by OPS, close-out letter to NTSB for
      review). Twenty of the 26 hazardous materials recommendations are classified
      as either open-acceptable response or open-acceptable alternative response, 1 is
      classified as open-response received, and 5 are classified as open-unacceptable
      response. The Department has implemented a process whereby a different
      Operating Administration meets with the Deputy Secretary, the Chief of Staff,
      and the General Counsel in a weekly regulatory review meeting to discuss,
      among other things, open-unacceptable NTSB recommendations. 8

      Department policy requires Operating Administrations to expeditiously pursue
      actions proposed in response to NTSB safety recommendations. There remain
      some long-standing NTSB pipeline and hazardous materials recommendations.
      We found that the average elapsed time of open NTSB pipeline and hazardous
      materials safety recommendations is 4.5 and 6.3 years, respectively, with a
      range of 0.8 to 14.8 years for pipeline safety recommendations and 0.7 years to
      16.1 years for hazardous materials safety recommendations. PHMSA has more
      open NTSB safety recommendations than any other Operating Administration;
      four recommendations are more than a decade old, with one that has been open
      for over 16 years, as PHMSA, FRA, and industry continue to work together to
      implement this recommendation.

      In addition, we found that the Operating Administrations could do a better job
      of meeting their statutory requirements for responding in a timely manner to
      open NTSB pipeline and hazardous materials safety recommendations.
      Specifically, we found that the Operating Administrations:

           -    With the exception of FAA, were not providing formal written
                responses to the recommendations within the required 90 days of
                receipt. The average elapsed time for these formal responses is
                158 days, with a range of 17 to 1,020 days. While the Department and
                NTSB may have held informal discussions on the course of action to be
                taken on a recommendation before the 90-day due date, by law the

8
    This means that each Operating Administration meets with the Deputy Secretary, the Chief of Staff, and the General
    Counsel approximately every 10 weeks.
                                                                                7


          Secretary must give a formal written response to each recommendation
          within 90 days of receipt.

      -   Did not always provide in their formal written responses a proposed
          timetable for completing the agreed-upon corrective actions. In
          64 percent (25 of 39) of NTSB pipeline and hazardous materials
          recommendations under review, we found that Operating
          Administrations’ responses did not include timetables. Timetables
          establish completion dates and allow DOT to measure the Operating
          Administrations’    progress    in   implementing      the    NTSB
          recommendations.

   The Department’s Assistant Secretary for Transportation Policy is responsible
   for monitoring the Operating Administrations’ compliance with the statutory
   requirement for responding to all NTSB recommendations. The process for
   monitoring compliance is not done in real time and the Department might be
   better served by a system for monitoring and tracking NTSB recommendations
   that ensures timely and proper responses to them, including milestones for
   completing the recommendations. Milestones should then be monitored to
   ensure that progress is being made in implementing the recommendations.


Summary of Management Comments and OIG Response
On August 9, 2005, we met with officials from the Department and the Operating
Administrations under review to discuss our results. We received their comments
and, when necessary, made the appropriate changes.

The Department and the Operating Administration officials stated they did not
believe that the report adequately reflected the work the Department has been
doing to address the outstanding mandates and open NTSB recommendations. We
made changes to the report identifying areas where progress had been made in
closing mandates and recommendations, distinguishing between the Department’s
responsibilities for congressional mandates versus NTSB recommendations, and
providing a more detailed description of the process for monitoring the Operating
Administrations’ responses to NTSB recommendations.

The Department’s efforts to reduce the number of outstanding mandates have been
effective, but there are still several pipeline and hazardous materials safety
mandates that remain outstanding, some for more than a decade. We would
expect the Department to maintain its focus on completing the actions necessary to
reducing these mandates and are therefore not making formal recommendations at
this time.
                                                                                                            8


Our review was limited to pipeline and hazardous materials safety
recommendations, which represent less than 9 percent of all NTSB
recommendations handled by the Department. We want to give the Department
the opportunity to determine if procedural deficiencies identified in this report
extend beyond pipeline and hazardous safety recommendations and to determine if
there is a need to develop a Department-wide system for monitoring and tracking
NTSB recommendations similar to the system used to track its rulemakings, which
has proven to be effective. Therefore, we are making no formal recommendations
at this time.


RESULTS
To address most congressional mandates and NTSB safety recommendations, the
Department and its Operating Administrations issue rules, complete studies, or do
both. As shown in Table 1, studies and rulemakings make up 89 percent (49 of
55) of the outstanding mandates and open NTSB recommendations regarding
pipeline and hazardous materials safety.

             Table 1. Number of Outstanding Mandates
        and Open NTSB Recommendations Department-Wide
                                                 Studies              Rulemaking                  Othera/
   Mandates
   Pipeline Safety                                   3                       4                      3
   Hazardous Materials Safety                        1                       4                      1
    Total                                            4                       8                      4
   NTSB Recommendations
   Pipeline Safety                                   3                       9                      1
   Hazardous Materials Safety                        2                      23                      1
    Total                                            5                      32                      2
   a/ This includes improvements in the oversight of pipeline and hazardous materials programs.


Some of the mandates cut across more than one mode of transportation and require
the coordination of two or more Operating Administrations, while other mandates
require the coordination of Federal agencies outside of DOT. These conditions
can, and at times do, lead to delays in completing the studies and new rules. For
example, one mandate from legislation enacted in 1990 requires that FRA conduct
a study dealing with the safe transport of high-level radioactive waste and spent
nuclear fuel. The study has required consultation with the Department of Energy,
Nuclear Regulatory Commission, affected states, and shippers of high-level
radioactive waste and spent nuclear fuel. FRA was first faced with a year-long
funding shortage and then with modifications to the risk assessment model it used
                                                                                 9


to complete its initial study, but it has completed the study after 14 years. The
report of the study’s findings was submitted to Congress on September 22, 2005.

The Secretary has taken an active interest in improving the Department’s
rulemaking process and has emphasized to senior managers the need to ensure that
rules are completed in a timely manner and that issues causing delays are
identified and resolved. Still, there remain some long-standing pipeline and
hazardous material mandates, with seven mandates more than a decade old. There
also remain some long-standing NTSB pipeline and hazardous materials
recommendations, with four recommendations having been open for more than
12 years.

Senior officials should continue to focus on reducing the number of outstanding
mandates and open NTSB recommendations—by issuing rules, completing
studies, or doing both. At the same time, senior officials need to focus on meeting
their statutory requirements when responding to NTSB recommendations. Instead
of submitting formal written responses to NTSB recommendations within 90 days
of receipt, as required by law, their average response time is 158 days. The
Department’s process for monitoring NTSB recommendations needs to be
strengthened to assure that NTSB recommendations have been handled in a timely
manner and properly addressed, including providing milestones for completing the
recommendations.


The Department Needs To Continue Reducing Old Mandates and
NTSB Recommendations
As shown in Table 2, the average elapsed time of the outstanding pipeline and
hazardous materials mandates is 8.8 years and 9.0 years, respectively, with a range
of 2.7 to 12.8 years for pipeline safety mandates and 2.5 to 14.8 years for
hazardous materials safety mandates. Three of the five pipeline safety mandates
date back to legislation enacted in 1992 and have been outstanding for more than
12 years, while three of the six hazardous materials mandates have been
outstanding for more than a decade.
                                                                                                            10


                 Table 2. Number and Average Elapsed Time
                           of Outstanding Mandates
            Operating                        Number of              Average                 Range of
          Administration                     Outstanding          Elapsed Time            Elapsed Time
                                              Mandates               (years)                 (years)a/
 Pipeline Safety
 PHMSA—OPS                                        10b/                   8.8                 2.7 to 12.8
 Hazardous Materials Safety
 FMCSAc/                                            3                    7.3                 3.8 to 11.0
 FRA                                                1                   14.8                        14.8
 PHMSA—OHMSd/                                       2                    8.6                 2.5 to 14.8
   Hazardous Materials Total                        6                    9.0                 2.5 to 14.8
 a/ Range of elapsed time is expressed in years and was calculated by dividing 12 into the number of months
    outstanding from the date the legislation containing the mandate was enacted up to August 31, 2005. For
    example, 12.8 years is calculated by dividing 154 months by 12 (12.8333 years) and rounding the result to
    12.8 years.
 b/ Five of the 10 mandates have not been included in elapsed time because 4 have congressional deadlines that
    have not come due and 1 lacks appropriated funds for implementation.
 c/ Federal Motor Carrier Safety Administration
 d/ Office of Hazardous Materials Safety


In our June 2004 testimony on pipeline safety before the House Subcommittee on
Highways, Transit and Pipelines, we reported that OPS has made considerable
progress in closing out mandates from legislation enacted in 1992, 1996, and 2002
and in closing out NTSB recommendations, some of which had been open since
the early 1990s. For example, of the 23 mandates from legislation enacted in the
Pipeline Safety Improvement Act of 2002, OPS has completed its actions mostly
on time for 15 of the 17 mandates with deadlines that had expired as of 2004. This
progress was the direct result of a high level of management attention and priority
in the past few years to implement the mandates.

Among the Operating Administrations, FRA has taken the longest to address
outstanding hazardous materials safety mandates, with an elapsed time of almost
15 years. For its one mandate, FRA attributes the delays to funding shortages and
substantial changes in the technology necessary to adequately address a
transportation safety issue.

The average elapsed time of the open NTSB pipeline and hazardous materials
safety recommendations is 4.5 years and 6.3 years, respectively, with a range of
0.8 to 14.8 years for pipeline safety recommendations and 0.7 to 16.1 years for
hazardous materials safety recommendations (see Table 3).
                                                                                                          11


               Table 3. Number and Average Elapsed Time of
                      Open NTSB Recommendations
            Operating                       Number of                  Average              Range of
          Administration                   Open NTSB                   Elapsed              Elapsed
                                         Recommendations             Time (years)         Time (years)a/
  Pipeline Safety
  PHMSA—OPS                                        13                       4.5            0.8 to 14.8
  Hazardous Materials Safety
  DOT                                               1                       7.0                    7.0
  FAA                                               5                       7.8             5.8 to 9.3
  FRA                                               7                       5.5            1.4 to 16.1
  PHMSA—OHMSb/                                     13                       6.1            0.7 to 16.1
   Hazardous Material Total                        26                       6.3            0.7 to 16.1
 a/ Range of elapsed time is expressed in years and was calculated by dividing 12 into the number of months
    outstanding from the date the legislation containing the mandate was enacted up to August 31, 2005. For
    example, 7.0 years is calculated by dividing 84 months by 12.
 b/ Office of Hazardous Materials Safety


PHMSA has more open NTSB recommendations than any other Operating
Administration, with four recommendations that are more than a decade old. The
oldest recommendation has been open for over 16 years, as PHMSA, FRA, and
industry continue to work together to implement it. NTSB recognizes that some
recommendations will require multi-year, long-term efforts to complete research
and studies. In our opinion, recommendations open for more than 5 years,
especially those open for more than 10 years, are not being pursued expeditiously.

The significance of both the mandates and NTSB recommendations cannot be
overstated, as nearly all are the direct result of a major safety accident involving
fatalities, injuries, or both. But unlike congressional mandates for which the
Department must take the necessary actions to complete the mandates, a safety
recommendation is NTSB’s suggested course of action to an Operating
Administration to correct a transportation safety deficiency. The Operating
Administrations can chose to adopt a NTSB recommendation, adopt one in part, or
decline to carry one out. For the latter two choices, the Operating Administrations
must provide NTSB with a reason for adopting the recommendation in part or not
at all.

There are five classifications of “open” recommendations to describe the quality
of the response of the Department or its Operating Administrations and the actions
taken to adopt or implement a NTSB recommendation: open-await response,
open-response received, open-acceptable action, open-acceptable alternate
response, and open-unacceptable response.
                                                                                                                12


All 13 pipeline safety recommendations are classified as open-acceptable
response, but the agreed-upon actions have either not been completed or actions
taken are considered by OPS as being in the close-out phase (i.e., acceptable
action taken by OPS, close-out letter to NTSB for review). Twenty of the
26 hazardous materials recommendations are classified as either open-acceptable
response or open-acceptable alternative response, with 1 classified as
open-response received and 5 classified as open-unacceptable response.

An open-unacceptable response indicates that NTSB expresses disagreement with
an Operating Administration’s procedures to adopt a recommendation or the
Operating Administration’s alternative response. Open recommendations can also
be classified as open-unacceptable if NTSB believes that actions taken to close the
recommendations are not being completed in a timely manner. The Department
has implemented a process whereby a different Operating Administration meets
with the Deputy Secretary, the Chief of Staff, and the General Counsel in a weekly
regulatory review meeting to discuss, among other things, open-unacceptable
NTSB recommendations.


The Department Needs To Focus on Meeting Its Statutory
Requirements for Responding to NTSB Pipeline and Hazardous
Materials Safety Recommendations
The NTSB is an independent Federal agency charged, in part, with investigating
pipeline and hazardous materials accidents involving a fatality, serious injury, or
substantial property damage. NTSB recommendations, which are issued to DOT
and its Operating Administrations, are intended to prevent future accidents and
promote safety. DOT policy, as required by law, 9 directs its Operating
Administrations to reply to NTSB recommendations within 90 days of receipt.
For recommendations with which the Operating Administration concurs, the
response must include an implementation timetable. DOT policy also requires that
all actions proposed in response to NTSB’s recommendations be pursued
expeditiously.

We found that the Department’s Operating Administrations could do a better job
of meeting this statutory obligation. As shown in Table 4, we found that the
Department and the Operating Administrations:

• With the exception of FAA, were not providing formal written responses to the
  recommendations within the required 90 days. In 74 percent (144 of 194) of
  the cases we reviewed, the Department and the Operating Administrations did
  not respond to NTSB within 90 days. While the Department and NTSB may

9
    Title 49, United States Code, Section 1135, “Secretary of Transportation’s Responses to Safety Recommendations.”
                                                                                                               13


       have held informal discussions on the course of action to be taken on a
       recommendation before the 90-day due date, the law states that the Secretary
       must give a formal written response to each recommendation within 90 days of
       receipt.

• The average elapsed time of the formal written response for NTSB pipeline
  and hazardous materials recommendations was 175 days and 146 days,
  respectively, with a range of 60 to 317 days for pipeline safety
  recommendations and 17 to 1,020 days for hazardous materials safety
  recommendations. In one case, it took the Department almost 3 years to
  provide a formal written response.


            Table 4. Average Response Time on Open and Closed
               NTSB Pipeline and Hazardous Materials Safety
                     Recommendations from 1989 to 2004
           Operating                No. of Initial         No. of Initial Average              Range of
         Administration              Responses              Responses      Time                 Time
                                   Within 90 Days          Past 90 Days (days)                 (days)a/
     Pipeline Safety
     DOT                                      0                   4              110            98 to 144
     PHMSA—OPS                                7                  70              178            60 to 317
      Subtotal for Pipeline                   7                  74              175            60 to 317
     Hazardous Materials Safety
     DOT                                      0                   3              444        121 to 1,020
     FAA                                     19                   0               64            46 to 75
     FMCSAb/                                  2                  12              197          52 to 481
     FRA                                      7                  18              161           23 to 613
     PHMSA—OHMSc/                            15                  37              138          17 to 413
      Subtotal for                           43                  70              146         17 to 1,020
      Hazardous Materials
      Total DOT-wide                         50                 144              158          17 to 1,020
     a/ The initial response time was calculated from the date the recommendation was issued to the date the
        Department or Operating Administration provided its initial written response to NTSB.
     b/ Federal Motor Carrier Safety Administration
     c/ Office of Hazardous Materials Safety


FAA is the only Operating Administration that has an Agency policy 10
implementing the Department’s policy. FAA policy requires that the initial
response letter be ready for the Administrator’s signature no later than 70 days
after receipt of the recommendations. Since 1989, FAA has taken an average of
64 days to provide an initial response to NTSB hazardous materials safety
10
     FAA Order 1220.2F, “FAA Procedures for Handling National Transportation Safety Board Recommendations,”
     March 22, 1995.
                                                                              14


recommendations, with a range of 46 to 75 days. The other Operating
Administrations could follow FAA’s lead and develop and implement additional
written procedural guidance and oversight to assure that key safety
recommendations are handled in a timely manner.

We also found that the Operating Administrations, including FAA, did not always
provide in their formal written responses a proposed timetable for completing the
agreed-upon actions to the recommendations. In 64 percent (25 of 39) of pipeline
and hazardous materials NTSB recommendations under review, no timetables
were provided. Timetables establish completion dates and allow DOT to measure
the Operating Administrations’ progress in implementing the NTSB
recommendations.


Improvements Are Needed in the Department’s Tracking and
Monitoring of NTSB Safety Recommendations
The Department’s Assistant Secretary for Transportation Policy is responsible for
monitoring the Operating Administrations’ compliance with the statutory
requirement for responding to all NTSB recommendations. Under the current
process, the Assistant Secretary’s Office of Policy Development relies primarily
on quarterly electronic updates from NTSB’s database to monitor the Operating
Administrations’ progress in completing the NTSB recommendation.

The Assistant Secretary’s process for monitoring compliance is not done in real
time, and the Department might be better served by a system for monitoring and
tracking NTSB recommendations to ensure timely and proper responses to them,
including milestones completing the recommendations. As we found, the average
elapsed time for these formal responses is 158 days, with a range of 17 to 1,020
days. Also, in 64 percent (25 of 39) of the NTSB pipeline and hazardous materials
recommendations under review, we found that Operating Administrations’
responses did not include timetables.


MANAGEMENT COMMENTS AND OIG RESPONSE
We provided a discussion draft of this report to the Department and the Operating
Administrations under review on July 29, 2005. On August 9, 2005, we met with
officials from the Department and Operating Administrations to discuss our results
and receive their oral comments. When necessary, we made appropriate changes
to the report.

The Department and the Operating Administration officials stated they did not
believe the report adequately reflected the work the Department has been doing to
address the outstanding mandates and open NTSB recommendations. We made
                                                                              15


changes to the report distinguishing between the Department’s responsibilities
with respect to congressional mandates and NTSB recommendations, providing a
more detailed description of the process for monitoring the Operating
Administrations’ compliance with the statutory requirement for responding to all
NTSB recommendations, and identifying areas where progress had been made in
closing mandates and recommendations.

As a result of our discussions with Department officials and a computer
demonstration of how the Department uses the quarterly updates from the NTSB
database to monitor compliance, we made changes to the report to reflect the
current process for monitoring NTSB recommendations. However, the process
does not have a “tickler system” to flag when a response is due or overdue, and
monitoring is not done in real-time.

The Department’s efforts to reduce the number of outstanding mandates have been
effective, but there are still several pipeline and hazardous materials safety
mandates that remain outstanding, some for more than a decade. We would
expect the Department to maintain its focus on completing the actions necessary to
reducing these mandates and are therefore not making formal recommendations at
this time.

Our review was limited to pipeline and hazardous materials safety
recommendations, which represent less than 9 percent of all NTSB
recommendations handled by the Department. We want to give the Department
the opportunity to determine if procedural deficiencies identified in this report
extend beyond pipeline and hazardous safety recommendations and to determine if
there is a need to develop a Department-wide system for monitoring and tracking
NTSB recommendations similar to the system used to track its rulemakings, which
has proven to be effective. Therefore, we are making no formal recommendations
at this time.

We appreciate the courtesies and cooperation of the Department, the Operating
Administrations, and NTSB representatives during this review. If I can answer
                                                                          16


any questions or be of further assistance, please feel free to contact me at
(202) 366-1959 or Robin K. Hunt, Deputy Assistant Inspector General for
Aviation and Special Program Audits, at (415) 744-0420.

                                     #

cc: Assistant Secretary for Transportation Policy
    Deputy Administrator, PHMSA
    Acting Assistant Administrator/Chief Safety Officer, PHMSA
    Associate Administrator for Pipeline Safety, PHMSA
    Associate Administrator for Hazardous Materials Safety, PHMSA
    Assistant Administrator for Security and Hazardous Materials, FAA
    Associate Administrator for Safety, FRA
    Associate Administrator for Enforcement and Program Delivery, FMCSA
    Martin Gertel, M-1
                                                                                 17




EXHIBIT A. SCOPE AND METHODOLOGY
The review was conducted from December 2004 to April 2005, and Tables 1
through 4 were updated as of August 31, 2005. Exhibits B, C, and D were updated
periodically, as needed. We conducted our review in accordance with Generally
Accepted Government Auditing Standards prescribed by the Comptroller General
of the United States.

As required by the Norman Y. Mineta Research and Special Programs
Improvement Act, the OIG conducted an audit of the Department’s progress in
implementing congressional mandates and other safety recommendations for
improving pipeline and hazardous materials safety. The Act requires the Inspector
General to provide a report to the Secretary of Transportation and the
Administrator of PHMSA containing a list of outstanding congressional mandates
and open safety recommendations made by the NTSB or OIG regarding pipeline
and hazardous materials safety.

This was a Department-wide review of DOT’s progress in implementing
congressional mandates and other safety recommendations for improving pipeline
and hazardous materials safety. The review was conducted at the Department’s
Operating Administrations and at NTSB in Washington, DC.

This report covers the Department’s congressional mandates identified in the
following legislation:
•   The Hazardous Materials Transportation Uniform Safety Act of 1990
•   The Sanitary Food Transportation Act of 1990
•   The Intermodal Surface Transportation Efficiency Act of 1991
•   The Pipeline Safety Act of 1992
•   The Hazardous Materials Transportation Authorization Act of 1994
•   The Accountable Pipeline Safety and Partnership Act of 1996
•   The DOT and Related Agencies Appropriations Act of 1997
•   The Transportation Equity Act for the 21st Century
•   The USA Patriot Act of 2001
•   The Pipeline Safety Improvement Act of 2002
•   The Consolidated Appropriations Resolution of 2003
•   The Consolidated Appropriations Act of 2005

In February 2005, we sent a memorandum to the Secretary with our preliminary
lists. In this report, we have updated and verified the information provided in that
memorandum. To determine what actions the Department and Operating
Administrations had taken to implement the mandates and recommendations, we
interviewed appropriate Department officials in the Office of the Secretary of

Exhibit A. Scope and Methodology
                                                                          18


Transportation, FAA, the Federal Motor Carrier Safety Administration, FRA, and
PHMSA. In addition, we reviewed pertinent records to substantiate actions taken.

We also determined the Operating Administrations’ compliance with statutory
requirements for NTSB recommendations issued from 1989 through 2004. We
held discussions with NTSB officials and examined DOT policies, procedures, and
records dealing with NTSB recommendations.




Exhibit A. Scope and Methodology                                               18
                                                                                                                                            19




EXHIBIT B. OPEN OIG PIPELINE AND HAZARDOUS MATERIALS SAFETY RECOMMENDATIONS
FROM 2004
                                                              Pipeline Safety
     Issue       Report            Lead            Open OIG Recommendation                             Actions Taken          Actions
      Date    Title and No.       Agency                                                                                      Needed
1   06/14/04 Actions Taken        PHMSA    Complete OPS actions on the remaining six Three of six mandates have been Complete
             and Needed for                mandates from legislation enacted in 1992 and completed. The status of the other the three
               Improving                   1996.                                         three can be found in Exhibit C, remaining
             Pipeline Safety,                                                            Pipeline Safety 1, 2, and 3.       mandates
              SC-2004-064
2   06/14/04 Actions Taken        PHMSA    Require operators of natural gas distribution     OPS is implementing an action plan      Complete
             and Needed for                pipelines to implement some form of pipeline      to address distribution pipeline        analysis and
               Improving                   integrity management or enhanced safety           integrity. PHMSA has scheduled          implement
             Pipeline Safety,              program with the same or similar integrity        several public meetings to gather       safety
              SC-2004-064                  management elements as programs for the           technical information and has           elements
                                           hazardous liquid and natural gas transmission     published workshop findings on its
                                           pipelines.                                        website.
3   06/14/04   Actions Taken      PHMSA    Finalize and implement “best practices” for       PHMSA completed a regional              Finalize
               and Needed for              PHMSA’s internal review process, including        review system in October 2002 and       best
                 Improving                 procedures to review data quality and to ensure   published instructions for completing   practices
               Pipeline Safety,            that the operators are providing current,         revised accident and annual reports
                SC-2004-064                complete, and accurate accident information.      in January 2004. Best practices for
                                           OPS should also take enforcement action           internal review process are being
                                           against those operators who are not complying     finalized.
                                           with the reporting requirements.
4   06/14/04   Actions Taken      PHMSA    Complete OPS actions to close out the             PHMSA submitted a letter to NTSB        Complete
               and Needed for              remaining five NTSB recommendations               requesting closure on three of the      actions to
                 Improving                 identified in the report.                         five open recommendations. The          close
               Pipeline Safety,                                                              status    of     the    other     two   recommen-
                SC-2004-064                                                                  recommendations can be found in         dations
                                                                                             Exhibit D, Pipeline Safety 6 and 9.




Exhibit B. Open OIG Pipeline and Hazardous Materials Safety Recommendations From 2004
                                                                                                                                20




                                                            Pipeline Safety
     Issue         Report          Lead           Open OIG Recommendation                       Actions Taken               Actions
      Date      Title and No.     Agency                                                                                    Needed
5   06/14/04   Actions Taken      PHMSA    Seek clarification on the delineation of roles and PHMSA is working with the Finalize and
               and Needed for              responsibilities between OPS and the Transportation Security Administra- implement a
                 Improving                 Department of Energy (DOE).                        tion on the elements of the memoran-
               Pipeline Safety,                                                               memorandum of agreement.    dum of
                SC-2004-064                                                                                               agreement




Exhibit B. Open OIG Pipeline and Hazardous Materials Safety Recommendations From 2004
                                                                                                                                       21




                                                    Hazardous Materials Safety
     Issue       Report      Lead           Open OIG Recommendation                              Actions Taken                Actions
      Date    Title and No. Agency                                                                                            Needed
1   11/19/04 Audit of FAA’s  FAA   Institute guidelines and timeframes for           On September 26, 2005, FAA issued      Complete
               Hazardous           conducting hazardous materials investigations,    Change 31 to Order 2130.3A             amendment
                Materials          conducting legal reviews, and issuing Notices of  instituting guidelines and timeframes  and issue
                Program,           Proposed Civil Penalties through the              for completing investigation and       Order
              SC-2005-015          coordinated efforts of the Hazardous Materials    enforcement cases. FAA expects to      2150.3B
                                   Division and Office of the Chief Counsel.         further amend Order 2130.3A (as
                                                                                     Order 2130.3B) by the end of 2005
2   11/19/04 Audit of FAA’s    FAA     Implement a nationwide plan to distribute FAA has implemented a plan.               Submit
               Hazardous               equitably the number of hazardous materials                                         supporting
               Materials               enforcement cases per attorney.                                                     documents
               Program,                                                                                                    and letter
              SC-2005-015                                                                                                  requesting
                                                                                                                           closure of
                                                                                                                           recommen-
                                                                                                                           dation
3   11/19/04 Audit of FAA’s    FAA     Develop and implement alternate means of FAA expects to publish a Notice of Issue final
               Hazardous               administering hazardous materials enforcement Proposed Rulemaking (NPRM) by rule
               Materials               cases, such as the ticketing system used by March 30, 2006.
               Program,                PHMSA.
              SC-2005-015
4   11/19/04 Audit of FAA’s    FAA     Finalize and implement the FAA voluntary         FAA has drafted a voluntary Issue
               Hazardous               disclosure reporting program. FAA needs to       disclosure advisory circular and advisory
               Materials               take a systematic approach in effectively        expects to publish it by the end of circular
               Program,                managing the program, to include disseminating   2005.
              SC-2005-015              all useful information to the air carriers,
                                       hazardous materials shippers, and DOT’s
                                       Operating Administrations with hazardous
                                       materials      oversight   and    enforcement
                                       responsibilities.




Exhibit B. Open OIG Pipeline and Hazardous Materials Safety Recommendations From 2004
                                                                                                                                         22




                                                    Hazardous Materials Safety
     Issue       Report      Lead           Open OIG Recommendation                              Actions Taken                 Actions
      Date    Title and No. Agency                                                                                             Needed
5   11/19/04 Audit of FAA’s  FAA Implement a pilot project with the                    FAA has drafted a pilot project, and Implement
               Hazardous           Transportation Security Administration (TSA)        it is under review by the Department pilot project
                Materials          and one or more air carriers to determine the       of Homeland Security.
                Program,           effectiveness and cost of an automated
              SC-2005-015          operating system to record and process
                                   violations of hazardous materials regulations
                                   discovered during the screening of passengers’
                                   carry-on and checked baggage. In the interim,
                                   collaborate with TSA to implement system-wide
                                   procedures for notifying FAA of hazardous
                                   materials incidents associated with passengers’
                                   carry-on baggage.
6   11/19/04 Audit of FAA’s  FAA Issue an advisory circular notifying all air          FAA is waiting for PHMSA to make       Issue
               Hazardous           carriers that they must report to FAA all           regulatory changes that will require   advisory
                Materials          unauthorized hazardous materials found in           air carriers to give FAA the address   circular
                Program,           passengers’ checked baggage and take                of the violator.      Once PHMSA
              SC-2005-015          enforcement actions against those air carriers      changes the rule, FAA will draft an
                                   not complying with the reporting requirements.      advisory circular.
7   11/19/04 Audit of FAA’s  FAA Develop and implement a covert testing                FAA is looking at past practices and   Implement
               Hazardous           program to evaluate air carriers’ compliance        is drafting a test protocol.       A   program
                Materials          with the required acceptance procedures for         timeline for prototype testing is
                Program,           hazardous materials shipments by air.               being developed.
              SC-2005-015          Preferably, a joint program would be established
                                   in which FAA works with TSA.
8   11/19/04 Audit of FAA’s  OST   Establish and implement a process for resolving     OST, FAA, and PHMSA              are Implement
               Hazardous           hazardous materials regulatory disputes between     developing a plan of action.         process for
                Materials          FAA and PHMSA to ensure that the unique                                                  resolution
                Program,           safety requirements for shipments of hazardous
              SC-2005-015          materials by air are being effectively addressed.




Exhibit B. Open OIG Pipeline and Hazardous Materials Safety Recommendations From 2004
                                                                                                                                        23




EXHIBIT C. OUTSTANDING PIPELINE AND HAZARDOUS MATERIALS SAFETY MANDATES
FROM LEGISLATION ENACTED FROM 1990 THROUGH 2004
                                                            Pipeline Safety
     Public Law       Section    Lead                Outstanding Mandate                               Actions Taken       Actions
    Title and No.               Agency                                                                                     Needed
1   Pipeline Safety   109(b)    PHMSA    12.8 years outstanding. Define and regulate NPRM published in March 1999. Issue final
     Act of 1992,                        natural gas gathering lines.                Supplemental NPRM published on rule
     P.L. 102-508                                                                    October 3, 2005. Comment period
                                                                                     ends January 3, 2006. Next steps to
                                                                                     be determined following evaluation
                                                                                     of comments.
2   Pipeline Safety   208(b)    PHMSA    12.8 years outstanding. Define and regulate PHMSA plans to issue NPRM by Issue final
      Act of 1992,                       hazardous liquid gathering lines.           April 2006.                         rule
     P.L. 102-508
3   Pipeline Safety   307(b)    PHMSA    12.8 years outstanding. Prepare a report to         Study completed.         Report to    Submit
      Act of 1992,                       Congress on a study of underwater abandoned         Congress is in the final stages of    report to
     P.L. 102-508                        pipeline facilities.                                clearance.                            Congress
4   Pipeline Safety     5       PHMSA    2.7 years outstanding. Each owner or operator of    Advisory bulletins published in       Finalize the
     Improvement                         a gas or hazardous liquid pipeline facility is to   September and November 2003.          criteria and
      Act of 2002,                       carry out a continuing program to educate the       NPRM on additional requirements       complete
     P.L. 107-355                        public on the use of a one-call notification        for public education programs         review of
                                         system before excavation and on other damage        issued on June 24, 2004. Final rule   programs
                                         prevention activities. The completed program        published in Federal Register on
                                         shall be submitted and periodically reviewed by     May 19, 2005. PHMSA and state
                                         the Secretary or appropriate state agency. The      agencies have drafted a plan to
                                         Secretary may issue standards prescribing the       review the criteria. PHMSA will
                                         elements of an effective public education           contract with a clearinghouse to
                                         program.                                            receive and review the programs
                                                                                             prior to the June 2006 deadline.




Exhibit C. Outstanding Pipeline and Hazardous Materials Safety Mandates From Legislation Enacted
From 1990 Through 2004
                                                                                                                                              24




                                                              Pipeline Safety
      Public Law      Section    Lead                 Outstanding Mandate                                 Actions Taken                   Actions
    Title and No.               Agency                                                                                                    Needed
5   Pipeline Safety     13      PHMSA    Not later than 3 years after enactment of this         Operator qualification protocols        Complete
     Improvement                         section, the Secretary shall review the                issued in July 2003. Inspections        inspections
      Act of 2002,                       qualification program of each pipeline operator        required under statute are 99.4%        and program
     P.L. 107-355                        and verify its compliance with the standards and       completed. PHMSA and states plan        evaluations
                                         criteria described in subsection (b) and that it       to complete program evaluations by
                                         includes the elements described in subsection (d).     the deadline, December 17, 2005.
6   Pipeline Safety     13      PHMSA    Not later than 4 years after enactment of this         Report to Congress is due               Submit
     Improvement                         section, the Secretary shall transmit to Congress      December 2006. PHMSA held a             report to
      Act of 2002,                       a report on the status and results to date of the      public meeting in December 2004         Congress
     P.L. 107-355                        personnel qualification regulations.                   to review the outline of the report.
7   Pipeline Safety     13      PHMSA    Not later than 3 years after enactment of this Act,    On April 15, 2005, PHMSA                Conduct
     Improvement                         the Secretary shall: (a) develop tests and other       published      a    notice    seeking   pilot
      Act of 2002,                       requirements for certifying qualifications of          participants for the pilot study.       program
     P.L. 107-355                        individuals who operate computer-based systems         Applications for participation were     and submit
                                         for controlling the operations of pipelines, and       accepted through May 16, 2005.          report to
                                         (b) establish a pilot program for three pipeline       Pilot study is to be completed by       Congress
                                         facilities in which individuals operating              December 17, 2005. Deadline for
                                         computer-based systems controlling pipeline            report to Congress is December
                                         operations are required to be certified.               2006.
8   Pipeline Safety     14      PHMSA    The operator shall complete a baseline integrity       Baseline integrity assessments are      Complete
     Improvement                         assessment of his or her facility not later than       scheduled to be completed by the        baseline
      Act of 2002,                       10 years after the enactment date of this              deadlines, December 2007 and            assessments
     P.L. 107-355                        subsection, and 50 percent of such facilities shall    December 2012.           PHMSA is
                                         be assessed not later than 5 years after the           reviewing assessment plans during
                                         enactment date.                                        its on-site inspections of integrity
                                                                                                management programs.
9   Pipeline Safety     23      PHMSA    2.7 years outstanding. The Secretary shall issue       NPRM issued on October 21, 2004.        Issue final
     Improvement                         regulations prescribing standards for inspection       Public meeting held in December         rule
      Act of 2002,                       of a pipeline facility by direct assessment no later   2004. Final rule is in PHMSA
     P.L. 107-355                        than 1 year after enactment date of this               coordination and is expected to be
                                         subsection.                                            issued by fall of 2006.


Exhibit C. Outstanding Pipeline and Hazardous Materials Safety Mandates From Legislation Enacted
From 1990 Through 2004
                                                                                                                                     25



                                                              Pipeline Safety
        Public Law       Section    Lead                Outstanding Mandate                           Actions Taken               Actions
      Title and No.                Agency                                                                                         Needed
10    Pipeline Safety      25a/    PHMSA    The Secretary shall initiate a study to determine Congress has not appropriated any Request
       Improvement                          whether cable-suspension pipeline bridges pose funds for the study.                 funding for
        Act of 2002,                        structural or other risks warranting special                                        the study
       P.L. 107-355                         inspection standards. The report of the study
                                            shall be transmitted to Congress within 2 years
                                            after enactment of the Act. The Secretary may
                                            carry out this section using only amounts that are
                                            specifically appropriated to carry out this section.
a/ An unfunded mandate




 Exhibit C. Outstanding Pipeline and Hazardous Materials Safety Mandates From Legislation Enacted
 From 1990 Through 2004
                                                                                                                                          26



                                                    Hazardous Materials Safety
     Public Law      Section    Lead               Outstanding Mandate                               Actions Taken                Actions
    Title and No.              Agency                                                                                             Needed
1     Hazardous       112      FMCSA    11.0 years outstanding. Amend regulations to      NPRM issued in July 1998. FMCSA Issue final
       Materials                        prohibit the driver of a motor vehicle            continues to work with OST to fulfill rule
    Transportation                      transporting hazardous materials in commerce      this mandate. The next step and
    Authorization                       and the driver of any commercial motor            estimated completion date have not
     Act of 1994,                       vehicle from driving the motor vehicle onto a     yet been determined.
     P.L. 103-311                       highway-rail grade crossing without having
                                        sufficient space to drive completely through
                                        the crossing without stopping.
2   Transportation   5209      FMCSA    7.2 years outstanding. The Secretary shall        FMCSA has implemented a program          Encourage
    Equity Act for    (a)               carry out a comprehensive program to deploy       to deploy core Commercial Vehicle        all states to
        the 21st                        intelligent transportation systems that improve   Information Systems and Networks         adopt and
       Century,                         the safety and productivity of commercial         (CVISN) capabilities. Seven states       deploy
     P.L. 105-178                       vehicles and drivers and also reduce costs        have received full deployment, and 32    CVISN
                                        associated with commercial vehicle operations     states are underway. In accordance       capabilities
                                        and Federal and state commercial vehicle          with congressional priority, FMCSA
                                        regulatory requirements.                          will complete the core CVISN
                                                                                          deployment before expanding CVISN
                                                                                          deployment.
3       USA          1012      FMCSA    3.8 years outstanding. A state may not issue to   Interim final rule published on May 5,   Issue final
      PATRIOT                           any individual a license to operate a motor       2003.      Second interim final rule     rule
     Act of 2001,                       vehicle transporting in commerce a hazardous      published on April 29, 2005, which
     P.L. 107-56                        material unless the Secretary has first           amended the requirement date in the
                                        determined, after a background check, that the    2003 interim rule to cross-reference
                                        individual does not pose a security risk          the TSA’s compliance date.         To
                                        warranting denial of the license. The term        ensure FMCSA’s regulations always
                                        “Secretary” originally referred to the            remain current with any changes
                                        Department of Transportation, but these           made by TSA that affect the
                                        functions have been transferred to the            applicability date, FMCSA must
                                        Secretary of Homeland Security and have           await the issuance of TSA’s final rule
                                        subsequently been delegated to TSA.               before it issues its final rule.




Exhibit C. Outstanding Pipeline and Hazardous Materials Safety Mandates From Legislation Enacted
From 1990 Through 2004
                                                                                                                                                                          27



                                                                     Hazardous Materials Safety
      Public Law                        Lead                       Outstanding Mandate                                          Actions Taken                         Actions
     Title and No.         Section     Agency                                                                                                                         Needed
4      Hazardous            15(b)       FRA         14.8 years outstanding. Consider the findings of              FRA is working with stakeholders to               Amend
        Materials                                   the Railroad Transportation Study and amend                   analyze the results of the study. A               regulations,
     Transportation                                 existing regulations, as appropriate, to provide              determination on whether to issue an              as
     Uniform Safety                                 for the safe transportation by rail of high-level             NPRM will be made by summer 2006.                 necessary,
      Act of 1990,                                  radioactive waste and spent nuclear fuel by                                                                     based on
      P.L. 101-615                                  various methods of rail transportation, including                                                               study
                                                    dedicated trains.                                                                                               results
5    Sanitary Food         4, 5, 6,    PHMSA        14.8 years outstanding. Issue regulations on the              NPRM issued in 1993. Supplemental                 Issue
     Transportation        7, and                   transportation of cosmetics, devices, drugs,                  NPRM issued on December 21, 2004,                 notice to
      Act (SFTA)              8a/                   food, and food additives in motor vehicles and                to ensure parties follow existing food            withdraw
        of 1990,                                    rail vehicles that are used to transport nonfood              safety requirements. The Hazardous                supplemen-
      P.L. 101-500                                  products that could make food products unsafe                 Materials    Safety    and     Security           tal NPRM
                                                    to humans or animals, including lists of safe                 Reauthorization Act of 2005 trans-
                                                    nonfood products that can be transported with                 ferred SFTA responsibilities to the
                                                    food, unsafe nonfood products that cannot be                  Department of Agriculture and the
                                                    transported with food, and extremely dangerous                Department of Health and Human
                                                    products that may be transported only in                      Services. PHMSA plans to issue a
                                                    dedicated vehicles.                                           notice to withdraw the supplemental
                                                                                                                  NPRM by November 2005.
6     Consolidated           334       PHMSA        2.5 years outstanding. Require DOT to contract                DOT awarded a contract to NAS in                  Complete
     Appropriations                                 with the National Academy of Sciences (NAS)                   March 2005.         NAS expects to                study and
     Resolution of                                  to conduct a study of the procedures by which                 complete its study and issue a report in          publish
       FY 2003,                                     DOE selects routes for shipping spent nuclear                 January 2006.                                     report
       Division 1,                                  fuel from research nuclear reactors between or
       P.L. 108-7                                   among existing DOE facilities currently
                                                    licensed to accept spent nuclear fuel.
a/ In OIG Report Number TR-1998-100, “Review of Departmental Actions Concerning the Sanitary Food Transportation Act of 1990,” issued on March 27, 1998, we
   recommended that SFTA be transferred to a more appropriate Federal agency with the expertise and knowledge to effectively regulate food transportation safety, specifically
   the Food and Drug Administration in the Department of Health and Human Services.




Exhibit C. Outstanding Pipeline and Hazardous Materials Safety Mandates From Legislation Enacted
From 1990 Through 2004
                                                                                                                                            28




EXHIBIT D. OPEN NTSB PIPELINE AND HAZARDOUS MATERIALS SAFETY RECOMMENDATIONS
FROM 1989 THROUGH 2004
                                                              Pipeline Safety
      Rec. No.     Lead            Open NTSB Recommendation                                NTSB Classification and                   Actions
     Issue Date   Agency                                                                Actions Taken by Lead Agency                 Needed
 1     P-90-29    PHMSA    14.8 years outstanding. With the assistance of      Open–acceptable response. Study completed in        Complete
        issued             the Minerals Management Service, U.S. Coast         January 1998. Final rule requiring periodic         additional
      10/01/90             Guard, and U.S. Army Corps of Engineers,            underwater inspection published on August 10,       evaluation
                           develop and implement effective methods and         2004. On August 17, 2004, PHMSA submitted a
                           requirements to bury, protect, inspect the burial   letter to NTSB requesting closure.          NTSB
                           depth of, and maintain all submerged pipelines      responded by encouraging PHMSA to conduct
                           in areas subject to damage by surface vessels       further studies on risks associated with offshore
                           and their operations.                               areas.
 2   P-98-02      PHMSA    7.3 years outstanding. Determine the extent of      Open–acceptable response.       Database of in-     Complete
      issued               the susceptibility to premature brittle-like        service plastic piping material failures is being   data
     04/30/98              cracking of older plastic piping that remains in    developed. Data collection will continue until      collection
                           use for gas service nationwide.                     January 25, 2006.                                   and analysis
 3   P-98-25      PHMSA    6.8 years outstanding. Require pipeline system      Open–acceptable response. Common Ground             NTSB
      issued               operators to precisely locate and place             Alliance has finalized the recommended best         approval of
     10/16/98              permanent markers at sites where their gas and      practice. The best practice can be found on         close-out
                           hazardous liquid pipelines cross navigable          PHMSA and Alliance websites.             PHMSA      letter
                           waterways.                                          submitted a letter to NTSB requesting closure.
 4   P-98-30      PHMSA    6.8 years outstanding. Assess the potential         Open–acceptable response. Advisory bulletin         NTSB
      issued               safety risks associated with rotating pipeline      published on August 11, 2005.            PHMSA      approval of
     11/18/98              controller shifts and establish industry            submitted a letter to NTSB requesting closure.      close-out
                           guidelines     for     the   development     and                                                        letter
                           implementation of pipeline controller work
                           schedules that reduce the likelihood of accidents
                           attributable to fatigue.




Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                          29




                                                             Pipeline Safety
      Rec. No.     Lead            Open NTSB Recommendation                                NTSB Classification and                   Actions
     Issue Date   Agency                                                                Actions Taken by Lead Agency                 Needed
 5     P-99-12    PHMSA    6.2 years outstanding. Establish within 2 years     Open–acceptable response. PHMSA continues         Complete
        issued             scientifically based hours-of-service regulations   its assessment of human fatigue in pipeline       study and
      06/01/99             that set limits on hours of service, provide        operations in a variety of research and standards amend
                           predictable work and rest schedules, and            efforts. Study results are expected in June 2006. regulation,
                           consider circadian rhythms and human sleep and      Advisory bulletin published on August 11, 2005.   as necessary,
                           rest requirements.                                  PHMSA will await NTSB feedback on P-98-30.        based on
                                                                                                                                 study results
 6   P-01-02      PHMSA    4.2 years outstanding. Require that excess flow     Open–acceptable response.             PHMSA    is Amend
      issued               valves be installed in all new and renewed gas      considering incorporating requirements for these regulations,
     06/22/01              service lines, regardless of a customer’s           valves in the upcoming integrity management as necessary
                           classification, when the operating conditions are   rule for gas distribution pipeline. NTSB does not
                           compatible with readily available valves.           agree with that approach. A public meeting was
                                                                               held June 17, 2005, to discuss the use of these
                                                                               valves in gas distribution pipelines.
 7   P-02-01      PHMSA    3.0 years outstanding. Establish quantitative       Open–acceptable response. Study on wrinkle Submit letter
      issued               criteria, based on engineering evaluations, for     bends completed. Final report issued in May to NTSB
     08/02/02              determining whether a wrinkle may be allowed        2003. PHMSA plans to post criteria on its requesting
                           to remain in a pipeline.                            website.                                          closure
 8   P-02-04      PHMSA    2.8 years outstanding.       Develop and issue      Open–acceptable response. Advisory bulletin NTSB
      issued               guidance to pipeline operators on specific testing  published on August 10, 2005.            PHMSA approval of
     10/11/02              procedures that can be used to approximate          submitted a letter to NTSB requesting closure.    close-out
                           actual operations during the commissioning of a                                                       letter
                           new pumping station or the installation of a new
                           relief valve and determine during annual tests
                           whether a relief valve is functioning properly.
 9   P-03-01      PHMSA    2.5 years outstanding. Revise regulations to Open–acceptable response. PHMSA is preparing Issue final
      issued               require that new or replaced pipelines be an NPRM and expects to publish it in November rule
     02/27/03              designed and constructed with features to 2005.
                           mitigate internal corrosion.




Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                             30




                                                             Pipeline Safety
      Rec. No.     Lead              Open NTSB Recommendation                                NTSB Classification and                   Actions
     Issue Date   Agency                                                                 Actions Taken by Lead Agency                  Needed
10     P-04-01    PHMSA    1.1 years outstanding. Remove the exemption in          Open–acceptable response. PHMSA plans to         Amend
        issued             regulations that permits pipe to be placed in natural   publish an advance NPRM in 2006 requesting       regulation,
      07/01/04             gas service after pressure testing when the pipe        comments on the impact of removing the           as necessary,
                           cannot be verified to have been transported in          exemption. This notice will also address         based on
                           accordance with the American Petroleum Institute’s      recommendations P-04-02 and P-04-03.             comments
                           (API) recommended practice.
11   P-04-02      PHMSA    1.1 years outstanding. Amend regulations to require     Open–acceptable response.       PHMSA will       Amend
      issued               that natural gas pipeline operators and hazardous       request comments in 2006 on the feasibility of   regulations,
     07/01/04              liquid operators follow API-recommended practice        adopting the API-recommended practice for        as necessary,
                           for transportation of pipe on marine vessels.           transportation of pipe on marine vessels.        based on
                                                                                                                                    comments
12   P-04-03      PHMSA    1.1 years outstanding. Evaluate the need for a truck    Open–acceptable response. PHMSA will also        Develop
      issued               transportation standard to prevent damage to pipe       request comments in 2006 on the need to          standards
     07/01/04              and, if needed, develop the standard and incorporate    develop a standard on truck transportation to    and amend
                           it into regulations for both natural gas and            prevent damage to pipe.                          regulations,
                           hazardous liquid line pipe.                                                                              as necessary,
                                                                                                                                    based on
                                                                                                                                    evaluation
13   P-04-07      PHMSA    0.8 years outstanding. Revise the emergency             Open–acceptable response. Advisory bulletin      NTSB
      issued               response planning requirements in the pipeline          published on May 23, 2005.          Common       approval of
     11/04/04              safety regulations to include coordination with         Ground Alliance is developing best practices     close-out
                           electric and other utilities that may need to respond   to be placed on the OPS website. PHMSA           letter
                           to a pipeline emergency.                                submitted a letter to NTSB requesting closure.




Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                      31




                                                    Hazardous Materials Safety
      Rec. No.     Lead               Open NTSB Recommendation                               NTSB Classification and             Actions
     Issue Date   Agency                                                                  Actions Taken by Lead Agency           Needed
 1    A-98-71      DOT     7.0 years outstanding. Require, within 2 years, that Open–unacceptable response. DOT has Submit
       issued              persons offering any shipment for air transportation drafted a close-out letter to NTSB.           letter to
      08/12/98             provide written responses on shipping papers to                                                    NTSB
                           inquiries about hazardous characteristics of the                                                   requesting
                           shipment and develop other procedures and                                                          closure
                           technologies to improve the detection of undeclared
                           hazardous materials offered for transportation.
 2   A-96-26       FAA     9.3 years outstanding. Require all air carriers, based on Open–acceptable response.        NPRM Submit
      issued               the evaluation performed under A-96-25, to revise as published on May 8, 2003. Final rule letter to
     05/31/96              necessary their practices and training for accepting issued on October 7, 2005.                    NTSB
                           passenger baggage and freight shipments and for                                                    requesting
                           identifying undeclared or unauthorized hazardous                                                   closure
                           materials that are offered for transport.
 3   A-97-65       FAA     7.9 years outstanding. Require that routine work cards Open–acceptable alternative response.       Submit
      issued               used during maintenance of Part 121 aircraft NPRM published on May 8, 2003. NTSB letter to
     09/09/97              (a) provide, for those work cards that call for the agrees with FAA’s argument that an NTSB
                           removal of any component containing hazardous inspector’s stamp/signature block is not requesting
                           materials, instructions for disposal of the hazardous needed. Final rule issued on October 7, closure
                           materials or a direct reference to the maintenance 2005.
                           manual provision containing those instructions and
                           (b) include an inspector’s signature block on any work
                           card that calls for handling a component containing
                           hazardous materials.
 4   A-97-70       FAA     7.9 years outstanding. Include, in its development and Open–acceptable response. In September Issue final
      issued               approval of air carrier maintenance procedures and 1998, FAA published a report and rule and
     09/09/97              programs, explicit consideration of human factor issues incorporated its finding into Advisory revise
                           (e.g., training, procedures development, redundancy, Circular          120-16D,    “Air    Carrier advisory
                           supervision, and the work environment) to improve the Maintenance Programs,” in 2003. NTSB circular
                           performance of personnel and their adherence to requested that FAA revise it to include
                           procedures.                                               references to FAA-published guidance
                                                                                     materials on maintenance human factors.


Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                          32



                                                     Hazardous Materials Safety
      Rec. No.     Lead                 Open NTSB Recommendation                                 NTSB Classification and            Actions
     Issue Date   Agency                                                                      Actions Taken by Lead Agency          Needed
 5    A-97-73      FAA     7.9 years outstanding. Require air carriers to ensure that Open–acceptable response.           NPRM Submit
       issued              maintenance facility personnel, including mechanics, and published on May 8, 2003. Final rule letter to
      09/09/97             shipping, receiving, and stores personnel at air carrier- issued on October 7, 2005.                   NTSB
                           operated or subcontractor facilities, are provided initial and                                         requesting
                           recurrent training in hazardous materials recognition and                                              closure
                           proper labeling, packaging, and shipment procedures with
                           respect to the specific items of hazardous materials that are
                           handled by the air carrier’s maintenance functions.
 6   R-04-04       FRA     1.4 years outstanding. Conduct a comprehensive analysis Open–unacceptable response.                    Complete
      issued               to determine the impact resistance of the steels in the shells Southwest Research Institute is analysis
     03/15/04              of pressure tank cars constructed before 1989.                 preparing a report on testing methods
                                                                                          to address impact resistance of tank
                                                                                          shells. A task force will begin steel
                                                                                          testing once the methods are evaluated.
                                                                                          NTSB did not agree with the task force
                                                                                          decision to gather steel samples from
                                                                                          only pre-1989 tank cars as they are
                                                                                          scrapped and not from tank cars
                                                                                          remaining in service.
 7   R-04-05       FRA     1.4 years outstanding. Based on the results of FRA’s Open–acceptable response. FRA plans Establish
      issued               comprehensive analysis of impact resistance of the steels in to implement this recommendation program
     03/15/04              the shells of pressure tank cars, as addressed in Safety once R-04-04 is complete.
                           Recommendation R-04-04, establish a program to rank
                           those cars according to their risk of catastrophic fracture
                           and separation and implement measures to eliminate or
                           mitigate this risk.
 8   R-04-06       FRA     1.4 years outstanding. Validate the predictive model that Open–acceptable response. FRA is Validate
      issued               FRA is developing to quantify the maximum dynamic sponsoring ongoing programs to the model
     03/15/04              forces acting on railroad tank cars under accident evaluate train forces associated with
                           conditions.                                                    derailments. FRA expects to complete
                                                                                          model validation in early 2006.



Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                      33



                                                     Hazardous Materials Safety
      Rec. No.     Lead                 Open NTSB Recommendation                               NTSB Classification and            Actions
     Issue Date   Agency                                                                   Actions Taken by Lead Agency           Needed
 9    R-04-07      FRA     1.4 years outstanding. Develop and implement design-         Open–unacceptable response.    FRA     Develop and
       issued              specific fracture toughness standards, such as a minimum     does not have data readily available   implement
      03/15/04             average Charpy value, for steels and other materials of      related to samples such as Charpy      tank-car
                           construction for pressure tank cars used to transport U.S.   specimens. FRA is researching this     design
                           DOT class 2 hazardous materials, including those in “low     area.                                  standards
                           temperature” service.




Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                                         34




                                                                  Hazardous Materials Safety
        Rec. No.        Lead                    Open NTSB Recommendation                                NTSB Classification and                    Actions
       Issue Date      Agency                                                                        Actions Taken by Lead Agency                  Needed
 10     R-89-53a/      PHMSA        16.1 years outstanding. Assist and cooperate in            Open–acceptable response. PHMSA, FRA,            Complete
 11     R-89-48a/        and        amending regulations to require that closure fittings      and industry continue to work together to        review and
         issued         FRA         on hazardous materials rail tanks be designed to           implement this recommendation. FRA is            amend
        07/14/89                    maintain their integrity in accidents that are typically   reviewing final research report on structural    regulations,
                                    survivable by the rail tank.                               strength of various tank-car fittings and the    as necessary,
                                                                                               need for fitting protection devices to reduce    based on
                                                                                               probability of lading loss.                      report’s
                                                                                                                                                results
 12      H-92-01       PHMSA        13.4 years outstanding.            Provide cargo tank      Open–acceptable response.         The Truck      Complete
          issued                    manufacturers specific written guidance about (a) the      Trailer    Manufacturers       has     revised   review and
         03/20/92                   factors and assumptions that must be considered when       Recommended Practice 87-92: “DOT 106,            amend
                                    calculating the loads on cargo tank rollover protection    DOT 407 and DOT 412 Cargo Tank                   regulations,
                                    devices in determining compliance with existing DOT        Rollover Accident Damage Protection.”            as necessary
                                    performance standards and (b) acceptable means to          PHMSA and FMCSA plan to review it and
                                    shield and protect the top-mounted closure fittings on     may incorporate it into the hazardous
                                    all bulk liquid cargo tanks.                               materials regulations.
 13      R-92-22a/     PHMSA        12.7 years outstanding. Develop and promulgate             Open–acceptable response.              Complete
                                                                                                                                  Final rule
 14      R-92-23a/       and        requirements for the periodic testing and inspection of    published in September 1995, based on  review and
          issued        FRA         rail tank cars that help to ensure the detection of        accumulated and average mileage on tankamend
         12/31/92                   cracks before they expand to critical length by            cars. To address damage-tolerance, FRA regulations,
                                    establishing inspection intervals that are based on the    funded two research projects. FRA is   as necessary,
                                    defect size detectable by the inspection method used,                                             based on
                                                                                               reviewing the final report on one project
                                    the stress level, and the crack propagation                and is awaiting a report on the other. reports’
                                    characteristics of the structural component.                                                      results
 15      H-98-27       PHMSA        7.3 years outstanding. Prohibit the carrying of            Open–acceptable response. NPRM issued Issue final
          issued                    hazardous materials in external piping of cargo tanks,     on December 30, 2004.         PHMSA is rule
         05/18/98                   such as loading lines, that may be vulnerable to failure   evaluating comments received on NPRM.
                                    in an accident.
a/ The same recommendation was assigned to two Operating Administrations.




Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                                      35



                                                                  Hazardous Materials Safety
        Rec. No.        Lead                    Open NTSB Recommendation                               NTSB Classification and                  Actions
       Issue Date      Agency                                                                       Actions Taken by Lead Agency                Needed
 16     A-99-80a/      PHMSA        5.8 years outstanding. Evaluate the fire hazards posed    Open–acceptable response. NPRM issued          Amend
 17     A-99-85a/        and        by lithium batteries in an air transportation             in April 2002. Interim final rule issued on    regulations,
         issued         FAA         environment and require that appropriate safety           December 15, 2004. PHMSA and FAA are           as necessary,
        11/16/99                    measures be taken to protect aircraft and occupants.      evaluating the hazards associated with         based on
                                                                                              secondary lithium batteries.      Based on     evaluation’s
                                                                                              results, additional rulemaking may be          results
                                                                                              necessary.
 18      A-99-82       PHMSA        5.8 years outstanding.        Require that packages       Open–acceptable response. NPRM issued          Amend
          issued                    containing lithium batteries be identified as hazardous   in April 2002. PHMSA is evaluating the         regulation,
         11/16/99                   materials, including appropriate marking and labeling     economic impact of the NPRM on small           as necessary,
                                    of the packages and proper identification in shipping     businesses and published a report on it on     based on
                                    documents, when transported on aircraft.                  June 15, 2005.       Comments are being        evaluation’s
                                                                                              evaluated and based on results, NPRM may       results
                                                                                              be amended.
 19      R-01-02a/     PHMSA        4.4 years outstanding. With the assistance of the         Open–acceptable       response.         The    Complete
 20      R-01-03a/       and        Association of American Railroads and the Railway         Association of American Railroads task         evaluation
          issued        FRA         Progress Institute, evaluate the deterioration of         force has collected 1,800 inspection reports   and
         03/12/01                   pressure relief devices through normal service and        on pressure relief devices. PHMSA will         determine
                                    then develop inspection criteria to ensure that the       consider regulatory changes once the tank      the need for
                                    pressure relief devices remain functional between         car committee completes its review of the      rulemaking
                                    regular inspection intervals.     Incorporate these       data.
                                    inspection criteria into the DOT hazardous materials
                                    regulations.
 21       I-02-01      PHMSA        3.1 years outstanding. With the assistance of the         Open–unacceptable response. Final rules        Submit
           issued                   Environmental      Protection   Agency    and    the      published on October 30, 2003, and April       letter to
         07/16/02                   Occupational Safety and Health Administration             15, 2005. PHMSA will not request closeout      NTSB
                                    (OSHA), develop safety requirements that apply to         until pending litigation is resolved.          requesting
                                    the loading and unloading of railroad tank cars,          PHMSA plans to request a classification of     closure
                                    highway cargo tanks, and other bulk containers that       “closed-acceptable alternative action.”
                                    address the inspection and maintenance of cargo
                                    transfer equipment, emergency shutdown measures,
                                    and personal protection requirements.
a/ The same recommendation was assigned to two Operating Administrations.

Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
                                                                                                                                             36




                                                     Hazardous Materials Safety
      Rec. No.     Lead               Open NTSB Recommendation                                 NTSB Classification and                  Actions
     Issue Date   Agency                                                                    Actions Taken by Lead Agency                Needed
22     I-02-02    PHMSA    3.1 years outstanding. After the adoption of safety       Open–unacceptable response. Final rules         Submit
        issued             requirements developed in response to Safety              published on October 30, 2003, and April        letter to
      07/16/02             Recommendation I-02-1, implement an oversight             15, 2005. PHMSA will not request closeout       NTSB
                           program to ensure compliance with these                   until pending litigation is resolved. PHMSA     requesting
                           requirements.                                             plans to request a classification of “closed-   closure
                                                                                     acceptable alternative action.”
23   H-02-23      PHMSA    2.9 years outstanding. Modify regulations to clearly      Open–acceptable response. The Compres-          Review
      issued               require that valves, piping, and fittings for cylinders   sed Gas Association completed a technical       standards
     09/26/02              that are both horizontally mounted and used to            bulletin on performance standards for tube      and amend
                           transport hazardous materials are protected from          trailers.   Upon receiving the standards,       regulations,
                           multidirectional forces that are likely to occur during   PHMSA will make a determination whether         as necessary
                           accidents, including rollovers.                           to incorporate them into the hazardous
                                                                                     materials regulations (HMR).
24   H-02-24      PHMSA    2.9 years outstanding.         Require cylinders that     Open–acceptable response. The Compres-          Review
      issued               transport hazardous materials and are horizontally        sed Gas Association completed a technical       standards
     09/26/02              mounted on semi-trailers be protected from impact         bulletin on performance standards for tube      and amend
                           with the roadway or terrain to reduce the likelihood of   trailers.   Upon receiving the standards,       regulations,
                           their being fractured and ejected during a rollover       PHMSA will make a determination whether         as necessary
                           accident.                                                 to incorporate them into the HMR.
25   H-04-23      PHMSA    1.1 years outstanding.               Require periodic     Open–acceptable response.             PHMSA     Complete
      issued               nondestructive testing of nurse tanks to identify         completed its evaluation concerning the         evaluation
     07/01/04              material flaws that could develop and grow during a       safety performance of nurse tanks and is        and amend
                           tank’s service and result in a tank failure.              currently considering alternative measures,     regulations
                                                                                     including periodic testing, to improve nurse
                                                                                     tank safety with a view toward proposing
                                                                                     such measures in upcoming rulemaking.
26   R-04-10      PHMSA    0.7 years outstanding. In cooperation with OSHA           Open–response received. PHMSA, FRA,             Develop
      issued               and the Environmental Protection Agency, develop          OSHA, and the Environmental Protection          and issue
     12/15/04              regulations that require safe operating procedures to     Agency are considering options such as a        regulations,
                           be established before hazardous materials are heated      joint advisory notice or a rulemaking action.   as necessary
                           in a railroad tank car for unloading.


Exhibit D. Open NTSB Pipeline and Hazardous Materials Safety Recommendations From 1989 Through
2004
